                                                  ADVISORY




RECOVERY OVERSIGHT ADVISORY
U.S. Bureau of Reclamation Rural Water Projects




Report No.: RO-B-0109-2010                        August 2011
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR



Memorandum
                                                                                      AUG 15 2011
To:            Rhea s. Suh
               Assistant Secretary for Policy, Management and Budget

Through:       Mary Pletcher
               Deputy Director, National Business Center

From:          RobertA.Knox~ p,.~
               Assistant Insp€ctOi Gen~ral fOTRecov\ ry Oversight

Subject:       Recovery Oversight Advisory - U.S. Bureau of Reclamation Rural Water Projects
               Report No. RO-B-USBR-OI09-2010

        This advisory, regarding concerns about the Bureau of Reclamation' s (USBR) oversight
of rural water projects, is part of our ongoing effort to oversee and ensure the accountability of
funding appropriated to the U.S. Department of the Interior (DOl) in the American Recovery and
Reinvestment Act of 2009 (Recovery Act).

Background

        In 2006, Congress passed the Rural Water Supply Act of2006 (Public Law 109-451) that
provided the basis for a rural water program in USBR. Prior to this act, rural water projects were
authorized and funded by specific legislation for each project. For example, in the early 1980s,
Congress directed USBR to implement 13 independently authorized, single-purpose municipal
and industrial water supply projects for rural communities throughout the West. This review
focused on several of these projects, which were not incorporated into the rural water program
established by Public Law 109-451.

        Rural water projects for tribal communities are often implemented under Public Law 93-
638, the Indian Self Determination and Educational Assistance Act of 1975, as amended, which
is intended to allow Indian people the authority to be self-sufficient and perform functions that
the Government would have performed on their behalf, with appropriate Federal oversight to
ensure that the funds are properly used for approved and applicable projects. The law contains
two significant titles: Title I tribes assume some governmental responsibilities for projects but
are subject to more bureau oversight than Title IV tribes, which are designated as self-governing
and assume virtually all of the responsibility for project planning and execution. To receive
Recovery Act funds , both Title I and Title IV tribes agreed to a funding agreement addendum
that provides increased oversight authority for awarding agencies.




                               Recovery Oversight Office I Washington. DC
        Title I and Title IV tribes, as shown in Figure 1, are required to have appropriate
property, procurement, and financial management systems in place in order to perform the
relevant government functions they are assuming. Tribes receiving Title IV status must have no
significant material deficiencies identified in single audit reports required by the Single Audit
Act of 1984 for 3 years prior to receiving such status. Inadequate internal systems and controls,
or issues found in single audits, increase the risk that projects funded under Public Law 93-638
may not be completed as planned.

                                                 Title I                          Title IV
                                  All Federally recognized tribes,
                                                                       Only self-governance tribes can
 Eligible Tribes                  including self-governance, can
                                                                       contract under Title IV.
                                  contract under Title I.
                                  Statutory requirements are           Statutory requirements are
                                  contained at 25 U.S.C. § 450 et      contained at 25 U.S.C. § 458aa
 Regulations                      seq.; applicable regulatory          et seq.; applicable regulatory
                                  requirements are found at 25         requirements are found at 25
                                  C.F.R. Part 900.                     C.F.R. Parts 1000 and 1001.
                                  The financial instrument can be a    The only financial instrument
                                  contract, cooperative agreement,     under Title IV is the Annual
 Financial Instruments
                                  or grant as negotiated with the      Funding Agreement negotiated
                                  funding agency.                      with the funding agency.

Figure 1. Tribal contracting regulations under Title I and Title IV.

Scope and Methodology

         We reviewed selected rural water projects involving seven recipients (see Figure 2) to
assess USBR’s administration and oversight efforts. During our evaluation, we reviewed the
initial project authorizations, applicable regulations, procedures for use of Public Law 93-638
agreements, USBR policies and procedures, information on the USBR Rural Water Program,
specific Recovery Act funding agreements, and selected recipient financial information.

        We also conducted in-person interviews with USBR budget, contracting, and project
management personnel in the Great Plains and Lower Colorado regional offices, the Denver, CO,
office, and the Washington, DC, office. In addition, we interviewed officials at the Office of
Self-Governance in Washington, DC, and state-level regional water district officials, contractors,
subcontractors, laborers, and tribal officials from the Chippewa Cree (Rocky Boy’s Indian
Reservation), Standing Rock Sioux, and Three Affiliated Tribes.

         After we completed our initial review work, we discussed potential findings with USBR
officials in a meeting on November 10, 2010. Participants in the meeting included USBR Denver
staff, as well as personnel in the Great Plains regional office and the Washington, DC, office via
telephone.




                                                                                                    2
                                                                                       Date and Public
Award Recipient                                             Sub-
                                                                          Award             Law
(93-638 designation        Project Description            Contracts
                                                                         Amount         Authorizing
   as applicable)                                         Awarded
                                                                                          Project
Garrison
                                                                                       1986
Diversion Project
                                                                                       Public Law 99-294
(5 recipients)
South Central
Regional Water
                         Water intake and                                $20
District*                                                       7
                         treatment plants                                Million
(non-tribal)
(recipient)
North Dakota State
Water                    Construction of pipeline
                                                                         $12
Commission*              and water treatment                    2
                                                                         Million
(non-tribal)             plant
(recipient)
                         Rural water supply
Spirit Lake Tribe        system, water treatment
                                                                         $3.6
(Title I tribe)          plant design, pilot plant              1
                                                                         Million
(recipient)              study, and well field
                         expansion/investigation
Standing Rock Sioux
Tribe                    Construction of water                           $19
                                                                3
(Title I tribe)          system                                          Million
(recipient)
Three Affiliated
Tribes                   Construction of water                           $6.4
                                                                2
(Title I tribe)          system                                          Million
(recipient)
                                                                                       1968 Public Law
Gila River Indian        Construction of the                                           90-537
                                                                         $36
Community                Pima-Maricopa irrigation               6                      (USBR and tribe
                                                                         Million
(Title IV tribe)         project                                                       agreed to terms in
                                                                                       1992)
Rocky Boy’s
Chippewa Cree            Project management,
Construction             design and construction
                                                                         $27.5         2002 Public
Company                  of the intake                         20
                                                                         Million       Law107-331
(CCCC)                   superstructure core
(Title IV tribal         pipeline segments
entity)

Figure 2. Rural Water Project Recipients Included in this Review. * Garrison Conservancy District



                                                                                                       3
        We met with the Great Plains regional staff a second time on December 17, 2010, to
further discuss the findings and their responses. The regional director, assistant regional director,
audit liaison, Native American affairs specialist, contract specialist, budget officer, USBR
Recovery Act coordinator, and a solicitor were in attendance. Participants from the USBR
Dakota and Montana area offices, including the area managers, chief of the rural water supply
program, and the relevant project managers, also attended. USBR provided additional
documentation and information in early 2011 for our consideration.

Findings

        We found several significant issues with USBR’s oversight of Recovery Act rural water
projects, including lack of policy and noncompliance with procedures, engineering costs,
inadequate project monitoring, and serious acquisition issues on specific projects.

Policy and Procedures

        USBR officials indicated that bureau policies and procedures regarding management of
Public Law 93-638 agreements were lacking. The officials stated that they would welcome such
policies and procedures that could guide the regional office staff, who currently relies upon
individual experience to execute and administer the agreements. This practice creates
inconsistency across regions.

        Specifically, the 2010-09 Department of the Interior Acquisition Policy Release (DIAPR)
regarding Public Law 93-638 contracts states, “Bureaus with authority to award these contracts
and agreements must establish supplementary procedures to delegate authority and establish
minimum training, experience, and continuing education requirements [for bureau contracting
officers].” We found that USBR does not have minimum training, experience, or continuing
education requirements in place.

        We found that the Great Plains region is not following the established practices outlined
in the USBR manual for developing independent government cost estimates (IGCE) for
construction projects. The manual states, “IGCE’s are prepared to establish the estimated cost of
performing specific work called for in the bidding schedules of the solicitations for a particular
supply, equipment or construction contract. They are used to assess whether bids submitted by
the offerors are fair, reasonable, and acceptable.” The manual further states that “IGCEs will be
prepared in as much detail as though the government were competing for the award.” We found
the agreements in place under the Garrison Diversion Rural Water Project (Garrison) did not
have an IGCE and that the Architecture and Engineering (A&E) contractor, hired by the
individual tribes or state entities, was developing the cost estimates. In contrast, we found that
the Lower Colorado Region did require IGCE’s for the Gila River project. We were told by one
official there that preparing IGCE is prudent business practice to ensure best value to the
government dollars; in this region, IGCE’s are prepared for all projects expected to exceed
$2,500.




                                                                                                    4
        USBR responded to our concern by stating that IGCEs were not performed because “it is
redundant, provides little added value and is costly to develop” and that the Standing Rock Sioux
Tribe’s A&E firm “has done an excellent job in developing Budgetary Estimates and Engineers
Estimates that compare very favorably with the eventual Bid Price.” This does not negate the
need for an IGCE, however, especially since the A&E firm is paid a percentage of the project
costs that they develop, and USBR is not following its own policies.

        During the December meeting, one USBR official stated that the reason a modification
for the Rocky Boy’s project took 9 months to complete was because the bureau was waiting for
the Chippewa Cree Construction Company (CCCC) to install pipe and provide the actual
installation cost. An IGCE would have provided a reasonable estimate of these costs and avoided
the delay in modifying the agreement. Furthermore, the Government would not have had to rely
on cost figures derived by a recipient.

        The USBR Lower Colorado regional office administers the Gila River rural water project
differently. This project is executed through a Title IV agreement, but we noted significant
bureau involvement and assistance to the tribe. We found that staff in this region were following
the USBR manual by preparing IGCEs for project elements expected to cost as little as $2,500
because as one official stated, “it is the most important part, because it determines if the cost you
pay is reasonable.”

Engineering Costs

        We found that for three of five agreements for the Garrison project, A&E firm fees were
based on a percentage of the cost of the projects (see Figure 3). We learned that the fee structure
provides no incentive for detailed scopes since a broader less-defined scope typically yields
larger fees as designs are refined. In contrast, on the remaining two projects, which were
contracted with other state and local entities, the A&E firm was paid for its costs based on
negotiated hourly labor rates.

        Recipient                          Agreement Date                       Funding
North Dakota State Water
                                     July 1985                       Hourly rates breakdown
Commission
Spirit Lake Tribe                    November 2008                   Percentage of award
South Central Regional Water
                             February 2010                           Hourly rates breakdown
District
Standing Rock Sioux Tribe            October 2001                    Percentage of award

Three Affiliated Tribes              August 2001                     Percentage of award

Figure 3. A&E firm fees for the Garrison project.

      USBR responded to our concern about A&E firm fees, stating that the “USDA [U.S.
Department of Agriculture] Rural Development (RD) has provided guidance for estimating

                                                                                                    5
engineering fees as a percentage of construction contract costs,” and the A&E firm had
“previously been using this method for working on [rural water] project[s]…this fee method is
considered reasonable.” We contacted staff at the Garrison Diversion Conservancy District, who
stated that they changed from a percentage-based A&E fee approach to an hourly labor rate basis
and experienced lower overall costs.

Project Monitoring

Scopes of Work

       At the Garrison project, we found that USBR wrote the initial scope of the project too
broadly. For example, USBR stated that a water treatment plant would be constructed but did not
include details of square footage or capacity. This increases the likelihood that the project will
incur numerous change orders with corresponding cost increases and increased funding
requirements.

        At the Rocky Boy’s project, we found confusion between USBR and CCCC, the Public
Law 93-638 tribal entity receiving Recovery Act funds, regarding the project scope. The original
project scope, as documented in the funding agreement, was to provide $20 million to complete
an intake superstructure and 13 miles of pipeline. On August 4, 2010, a CCCC official told us
that the $20 million was never expected to cover the entire project scope and that additional
funds from the State of Montana were essential to complete the 13 miles of pipeline.

        Upon further inquiry, we discovered that a notice to significantly change the original
project scope was documented via a memorandum to USBR from CCCC. The January 28, 2010
memorandum described a reduction in the miles of pipeline to be completed from 13 miles to
8.18 miles, a 37 percent reduction, predominantly because of USBR’s requirement to use steel
instead of ductile iron pipe, which increased the cost to complete 1 mile of pipeline from $1
million to $1.59 million. Even though this correspondence alerted the bureau of scope changes in
January 2010, a relevant modification was not completed until September 9, 2010.

        Furthermore, we noted that CCCC prepared a plan on August 10, 2009, that specified
steel pipe. USBR stated that this material specification was not included in the funding
modification signed on September 21, 2009, because the modification had been sent forward for
higher-level bureau review and could not be easily revised at that point.

Profit

        While reviewing the expenditure information provided by CCCC, we determined that the
corporation was charging 10 percent profit on the pipeline project without USBR’s awareness or
concurrence. As of June 30, 2010, this amounted to about $408,000. CCCC officials stated that
the 10 percent profit was negotiated between USBR and CCCC after months of discussion, but,
when asked about the profit, USBR stated that it had not been negotiated for the Recovery Act
portion of the project and that profit would be determined near the end of the project after total
costs and remaining funds were determined.



                                                                                                 6
       We also determined CCCC was charging profit inconsistently during this project. At one
point during project execution, CCCC ceased taking profit on the cost of pipeline materials
because a company official stated it would be too much to charge. We also found that the tribe
was charging direct administrative costs, amounting to about $201,000 through June 30, 2010.

        In the December 17, 2010 meeting, we asked USBR whether profit is allowable to
CCCC. We were referred to 25 C.F.R. 900.127 (c)(4), which states that profit is allowed to the
“contractor that carries out the construction contract.” Since CCCC is the Public Law 93-638
tribal entity receiving funds, profit is allowable to any contractors they engage, but based on our
understanding of the above regulation, it is not clear that profit is allowable to CCCC as the Title
IV recipient.

         USBR noted that the profit indicated on the CCCC financial report was likely a
misstatement of allowable costs. The potential misstatement as profit, combined with the
company’s inconsistency in charging this cost, raises concerns about the adequacy of CCCC’s
financial management system. Since USBR had not seen the tribal financial statements, it was
unaware that profit was defined as a cost line item on their statement of expenses. This further
illustrates our concern about oversight. In response, USBR developed a plan to work with CCCC
to correct accounting terminology and ensure that their financial management system meets
regulatory requirements. USBR stated that the plan would be implemented in early 2011.

Additional Fees

         We found additional costs and fees associated with tribal rural water contracts. These
include the Tribal Employment Rights Office (TERO) fees, USBR oversight fees, and tribal
Environmental Protection Agency (EPA) fees. The TERO and EPA offices were established by
tribal resolution to provide for tribal employment and environmental cleanup during and after
construction on tribal lands. The fees are not standardized, vary from tribe to tribe, and range
from 1 to 5 percent depending on the approved tribal resolution. At the Rocky Boy’s project, we
noted that TERO fees were being collected for work performed off of reservation lands. While
the tribe has no authority to require such fees off-reservation, USBR stated that if the tribe and
their contractors negotiated these fees, they were acceptable. In this case, however, the
contractor, CCCC, is the Title IV entity controlled by the tribe. In effect, one tribal entity is
paying another tribal entity TERO fees for work completed off of the reservation. As of June 30,
2010, $412,000 had been paid in TERO fees. No EPA fees were paid on this project. USBR was
unaware of these fees and did not negotiate with the tribal entity to eliminate them.

        When we asked about the application of TERO fees to the Garrison project, USBR told
us that these charges are not direct costs for Recovery Act projects, and it has limited
information on them. USBR staff did not follow-up to determine the amounts of TERO fees or
how they are assessed and paid. All of these non-construction fees reduce funds that could be
used to build facilities or lay pipelines and, therefore, extend project milestones while increasing
costs.

         We asked both USBR and BIA to provide guidance on TERO fees, and neither was able
to justify these fees as an allowable expense on Federally-funded contracts. A BIA official told


                                                                                                   7
us that TERO fees are negotiated and could be eliminated from contracts if the parties agreed. At
the Gila River project, we found that the Title IV tribe decided not to collect TERO fees on their
Recovery Act project because they wanted as much money as possible to be used to complete the
project. We were not provided specific legal authority to support the applicability of a tribe’s
TERO outside the boundaries of its reservation, which supports our contention that USBR should
have been involved in negotiations about TERO fees on Recovery Act rural water projects.

        We found that USBR is also retaining funds from rural water projects for oversight. For
each of the five Public Law 93-638 contracts or agreements with tribal organizations on the
Garrison project, the Great Plains region retained $100,000 for the “performance of inherently-
Federal functions and contract oversight activities.” In addition, $140,000 was retained to
provide “Reclamation Oversight” on the Rocky Boy’s Rural Water project. While we did not
assess how USBR is specifically expending these oversight funds, it seems that USBR has the
financial resources to address the oversight concerns we identified in this review.

Specific Contract Issues

      We identified several specific contract issues on rural water projects, including work on
some projects that began before signed agreements were in place, and that the contract with the
A&E firm performing all of the work on the Garrison project has not recently been recompeted.

        All agreements we reviewed from the Great Plains office were signed after the projects
had begun work. In the instance of the Garrison project, tribal recipients were obligating funds
with their contractors, such as the A&E firm, before they had a signed agreement with terms and
amounts of funding from USBR. In response to our concerns, USBR noted that such pre-award
costs are allowable and not unusual. Further, USBR noted that this practice was critical for
Recovery Act projects given the law’s mandate for “successful and timely completion of
contracted activities.”

        We found that all of the A&E work for the Garrison projects is being managed by the
same A&E firm. We reviewed all five tribal contracts with the A&E firm and noted they do not
have an expiration or renewal date. Some of these contracts have been in place for decades
without being rebid to determine if the Government and tribes are receiving the best value for the
work performed or obtaining the most qualified firm. In one instance, the original contract
initiated in 1994 was renewed, though not rebid, in 2010 solely at the request of the U.S.
Department of Agriculture, and another has been in place since 1985 and has never been
resolicited.

        In response to our concern regarding the length of some of the contracts held between the
tribes and the A&E contractor, USBR provided several valid reasons as to why the contracts
were not recompeted for the Recovery Act tasks. The most compelling response was the amount
of time it would have taken to initiate new contracts, when valid contracts were already in place.
We understand that tight timelines for obligating Recovery Act funds created challenges for all
DOI bureaus, yet decades-long contracts without recompetition can create situations where
relationships become too lax and Government funds become more susceptible to fraud, waste,
and mismanagement.


                                                                                                  8
        Furthermore, an A&E firm handles the entire procurement process for the tribe, which
includes managing the contracting process, providing specification development, soliciting bids,
participating in bid opening with tribal officials, and making recommendations on selection for
the Garrison project. As a result, the firm is in a position to manipulate the competitive bidding
process and steer bids to favored contractors. We also found that the A&E firm managed several
small scale pilot projects to validate the technical designs. The contractors that completed the
pilot projects were selected non-competitively via an invitation letter from the A&E firm. These
firms were thus given a subsequent unfair competitive advantage when bidding on the full-scale
implementation of the pilot project processes.

Recommendations

We recommend that USBR:

       1.      Develop and implement consistent policies and procedures among regions for
               oversight of Public Law 93-638 rural water contracts, including training
               requirements for USBR staff.

       2.      Instruct regions to comply with existing procedures regarding preparation of
               IGCEs for Public Law 93-638 rural water contracts or adequately document
               reasons IGCEs were not prepared for specific projects.

       3.      Direct Great Plains region to review all existing tribal rural water contracts with
               A&E firms to ensure prices provide incentives for cost reductions and the most
               favorable terms to the tribes.

       4.      Direct Great Plains region to ensure tribal rural water contracts reflect the most
               current project scopes of work.

       5.      Direct Great Plains region to provide training and guidance to tribal entities with
               rural water projects to ensure financial and procurement management systems
               adequately and accurately track and report project costs.

       6.      Develop and implement consistent processes for regions to negotiate with tribes
               having rural water projects to ensure project fees (TERO, environmental,
               administrative, profit) are reasonable and appropriate.

       7.      Direct Great Plains region to review tribal rural water A&E contracts to identify
               long-standing relationships and encourage tribes to resolicit such contracts
               periodically to allow for open competition.

       USBR reviewed these recommendations and agreed that many of them make good
business sense. USBR also noted that many of the recommended practices, policies, and
procedures were in place but needed to be more rigorously and consistently applied. Finally,



                                                                                                     9
USBR noted it is “in the process of working with the Regions to implement these
recommendations more consistently.”

        Please provide a written response to this advisory within 30 days of receipt detailing the
corrective actions to be implemented to meet our recommendations, as well as targeted
completion dates and the title(s) of the official(s) responsible for implementation. We will post
this advisory on our Web site (www.doioig.gov/recovery/) and Recovery.gov. Information
contained in this advisory may also be included in our semiannual reports to Congress. We
performed our work in accordance with the applicable Quality Standards for Inspection and
Evaluation adopted by the Council of the Inspectors General on Integrity and Efficiency. Please
contact me, if you have any questions.

cc:   Deputy Secretary, U.S. Department of the Interior
      Director, Office of Executive Secretariat and Regulatory Affairs
      Commissioner, U.S. Bureau of Reclamation
      Director, Office of Acquisition and Property Management
      Acting Director, Office of Financial Management
      Departmental GAO/ OIG Audit Liaison
      Audit Liaison, Office of the Secretary
      Audit Liaison, U.S. Bureau of Reclamation
      Recovery Coordinator, U.S. Bureau of Reclamation




                                                                                                 10
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
